                                                       SENSITIVE BUT UNCLASSIFIED



                                                 United States Department of State
                                              and the Broadcasting Board of Governors
                                                     Office of Inspector General
Office of Inspector General


                                                    Office of Inspections

                                              Inspection of
                              Bureau of Information Resource Management,
                                          Office of EDiplomacy

                                               Report Number ISP-I-11-62, August 2011




                                                               Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be
                              made, in whole or in part, outside the Department of State or the Broadcasting Board
                              of Governors, by them or by other agencies of organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be
                              determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.Improper
                              disclosure of this report may result in criminal, civil, or administrative penalties.




                                                  i
                                     SENSITIVESENSITIVE BUT UNCLASSIFIED
                                               BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents

Key Judgments                                              1
Context                                                    3
Executive Direction                                        4
   Mission and Goals                                       4
   Leadership                                              6
   Organizational Structure                                8
   Staffing                                               10
   Performance Measures                                   12
   Outreach                                               12
   Security Controls                                      13
   Funding Request Process                                14
Diplomatic Innovation Division                            15
   Diplomatic Innovation Division Teams                   15
   Team Structure                                         19
   Project Management Methodology                         20
   Diplomatic Innovation Division Projects and Services   22
Customer Liaison Division                                 31
List of Recommendations                                   35
Informal Recommendations                                  38
Principal Officials                                       39
Abbreviations                                             40
Appendix: EDiplomacy Organizational Chart                 41




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
 •   A small, agile innovation incubator in the Bureau of Information Resource Management
     (IRM), the Office of eDiplomacy (eDiplomacy) has introduced a number of new
     technologies and business practices to the Department of State (Department). Department
     employees and senior managers alike view eDiplomacy staff as enthusiastic and
     innovative, with the ability to take on unusual projects and to support new technology
     applications.

 •   EDiplomacy lacks a clear, agreed-upon mission statement that defines key goals and
     objectives. Such a document would enable eDiplomacy to delineate core functions,
     manage projects, allocate resources, and make logical management decisions.

 •   A culture of measurement and evaluation is not fully developed in eDiplomacy. With the
     absence of performance measurement process, management has few means to evaluate,
     control, budget, and measure the success of its projects. It is also difficult to determine
     the appropriate staffing levels needed to accomplish eDiplomacy’s stated objectives.

 •   Despite a steady pursuit of outside validation, eDiplomacy lacks a strategic approach to
     marketing its innovations within the Department. The development of a robust outreach
     strategy would make eDiplomacy’s accomplishments better known to users in
     Washington and abroad.

 •   The current organizational placement of the Customer Liaison Division (CLD) within
     eDiplomacy diminishes its effectiveness, its clout within IRM, and its visibility to the rest
     of the Department. Relocating CLD so that it reports directly to the Bureau of Business
     Management and Planning Directorate (BMP) would improve its effectiveness. .

 •   The Diplomatic Innovation Division (DID) has clearly benefited from a new team
     organizational structure, which should be formalized; however, the absence of project
     management processes is hindering its ability to initiate, prioritize, and implement
     programs appropriately.

 •   The External Affairs branch has valuable access to information, resources, and contacts
     from its work with Federal agencies, foreign governments, and international
     organizations. However, the branch should be relocated from CLD to the Office of the
     Chief Information Officer to better serve policy and operational elements in the
     Department.

 •   EDiplomacy staff members who handle information systems security officer (ISSO)
     responsibilities do not have the required designation letters and thus are not recognized
     within the office and the Department as having such responsibilities.

 •   Stronger controls over supply procurement and storage are needed to facilitate better
     expense control.



                                        1
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

The inspection took place in Washington, D.C, between May 2 and June 3, 2011. (b) (6)




                                         2
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Context
        “Pinstripe-wearing diplomats will work side-by-side with khaki-clad techies in the State
Department's E-Diplomacy Office.” At least, that is how Government Computer News in 2002
hailed the establishment of eDiplomacy, a new Department office whose goal was to “make sure
the technological resources are responsive to user needs and core business practice.” The
magazine predicted that the new office would “bring diplomats into the mainstream of
technology development at State.”

        Senior officials credit eDiplomacy’s DID with a number of innovations in support of the
Department’s work, including Diplopedia, an online encyclopedia of Foreign Affairs information
that is modeled on the Internet’s Wikipedia; the Communities@State initiative, a knowledge
management program that allow groups of widely dispersed employees with a common interest
or task to share knowledge and stay connected; and Corridor, a secure online professional
networking platform that resembles Facebook or Linkedin. DID staff launched—and in most
cases continues to support—initiatives such as the Secretary’s Sounding Board, the Virtual
Student Foreign Service eIntern program, and the Tech@State conferences. Indeed, the office
lists more than 40 active projects on its SharePoint site.

        The other half of eDiplomacy is CLD, which was realigned within IRM to eDiplomacy in
2010. CLD staff members are assigned to as few as one or as many as five bureaus and offices in
order to understand end-user requirements, facilitate communication with internal IRM units,
and manage the delivery of IRM services. CLD employees track customer satisfaction and solve
problems. A small subunit carries out liaison with other U.S. Government agencies and
foreign/multinational entities.

        Employees and senior managers both inside IRM and elsewhere in the Department view
eDiplomacy staff as enthusiastic and innovative, with the ability to take on unusual projects and
support new technology applications. The once-small, agile task force has grown and has been
integrated into the IRM organization structure. The director of eDiplomacy, an FS-01 economic-
cone officer, reports to the deputy chief information officer for BMP and meets frequently with
the chief information officer (CIO).

         The CIO, drawing on the conclusions of the Secretary’s Quadrennial Diplomacy and
Development Review, has asked eDiplomacy to think about the kind of information resource
operations the Department will need in the future. Referred to as the IRM 2020 project, this
study has been embraced by the eDiplomacy director and his staff. The OIG team found the
effort to be potentially useful in examining the far-reaching changes in information technology
(IT) that are coming—be it cloud computing, handheld tablets, or other developments. Some
believe that IRM in the future will be less intensely concerned with operating hardware and more
focused on business process advising on how to manage the Department’s information resources.
If so, there are major changes ahead in the way the Department recruits, trains, and promotes
IRM personnel.

        At the time of the inspection, eDiplomacy had 54 full-time-equivalent positions and 17
contractors supporting its operations. The office has welcomed a number of interns, Franklin
Fellows, and other employees needing a temporary position between formal assignments. In FY
2011, eDiplomacy’s annual operating budget was approximately $4.26 million (excluding direct-
hire salaries).
                                                 3
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Executive Direction
Mission and Goals

        EDiplomacy is associated in the minds of most Department employees with some of the
good technological and institutional changes that have made work more efficient and
communication easier. Not only is eDiplomacy credited with advocating policy changes for
BlackBerry use and bringing Diplopedia to the workplace, it is also generally known to advocate
on behalf of users regarding modern technology.

        The good news is that many employees in the Department have heard about eDiplomacy.
However, many also view it as an office in search of a mission. Indeed, the OIG inspectors
identified five different mission statements. Three of these date back to when the office was
established in 2002 and reflect the office’s initial mandate:

   •   give Department end users a voice in information technology decisionmaking;
   •   improve communication and collaboration within the Department and with Foreign
       Affairs partner agencies; and
   •   design and implement a better way to share knowledge and information.

       According to the director, eDiplomacy has followed those three priorities ever since.
More recently, in support of the Quadrennial Diplomacy and Development Review objectives,
eDiplomacy has also added two more mission statements:

   •   institute techcraft for diplomats to catalyze collaboration between the worlds of
       technology, diplomacy, and development; and
   •   prepare IRM for a rapidly changing technology profile within the Department.

        EDiplomacy has several other similar mission statements. For example, its intranet Web
site says its mission is to identify new collaborative technologies in the private sector that benefit
the Department. Also, its homepage lays out a scope of work that seems to mirror the office’s
original purpose, saying eDiplomacy has a unique, interrelated three-part mandate. Further,
within Diplopedia, the office describes its own mission as being to imagine, create, advocate for,
and educate about platforms for working collaboratively and sharing knowledge across all of the
Department's diverse communities.

         In the course of many interviews with eDiplomacy employees and Department
employees familiar with its accomplishments, it became clear that eDiplomacy’s work by DID
staff falls into four activity baskets:

   •   technology that is useful to the Department’s employees and leaders (e.g. Diplopedia,
       several of the Communities@State, and the newest, a professional networking tool called
       Corridor);
   •   advocacy for new technologies that will serve the needs of Department users (e.g.,
       connection technologies, desktop video conferencing, tablet computing, and BlackBerry
       cameras);

                                            4
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


   •   advising on potential technology solutions to workplace needs (e.g., a dashboard for the
       Combined Federal Campaign, a Web site for human rights, workflow management for
       the Bureau of European and Eurasian Affairs (EUR) Southeastern Europe office, and the
       classified home page project); and
   •   taskings from Department leaders (e.g., Sounding Board, Virtual Student Foreign Service
       program, TechCamps, and Tech@State conferences).

        It is beneficial for eDiplomacy that staff can point to multiple mission statements in
various locations that reflect different formulations. However, none of them are effective unless
the employees accept these statements as true mandates that actually guide the work of the office
and staff.

        Without clear mission statements, it can be perceived by Department officials that
eDiplomacy may be encroaching on another office’s mandate. One senior Department official
questioned why eDiplomacy moves forward on projects that were considered a nonpriority for
the Department. Such action by eDiplomacy, the senior official said, implies that either
eDiplomacy perceives its judgment is better than that of other senior officials or that eDiplomacy
has an abundance of funds to work on any mentioned project.
EDiplomacy must paint some “yellow lines down the innovation highway and stay in its lane.”

       IRM’s Bureau Strategic and Resource Plan (BSRP) is a good starting point for defining
eDiplomacy’s mission and vision. The BSRP lists its first goal as “digital diplomacy,” which
focuses on applying modern tools to the tasks of diplomacy and expanding the use of
collaborative information development. The BSRP also calls for obtaining a range of tools and
methods for creating, packaging, and sharing information throughout the Department and with
external partners and audiences worldwide. However, Department employees were not given the
capability to create effective, tailored information products. Thus eDiplomacy’s mission
statement was not aligned with IRM’s BSRP to ensure that its outputs are in line with the overall
Department mission.

Recommendation 1: The Office of eDiplomacy, in coordination with the Office of the Chief
Information Officer, should establish and mandate a mission statement for the office that outlines
its core focus and mission for the Department of State. (Action: eDiplomacy, in coordination
with CIO)

        EDiplomacy also lacks completed goals and objectives for its divisions. The failure to set
clearly defined and widely accepted goals and objectives for eDiplomacy operations has many
ramifications. It leads to confusion among staff members and customers, inefficiency in
operations, flawed decisionmaking, imperfect allocation of resources, and an inability to measure
performance or results.

       DID employees have varying levels of clarity and definition of their goals and objectives,
which will be discussed later in the report. Likewise, many CLD employees are not informed
about how their own tasks relate to the DID operation or larger eDiplomacy goals. They report
that eDiplomacy office management seems uninterested in their work. Newly arrived employees,
especially those coming from overseas posts, report anxiety and disorientation due to the
ambiguity and unstructured nature of eDiplomacy.

                                          5
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The Department requires that subordinate offices develop their goals and objectives on
the basis of the BSRP. Office leaders must formally define the program goals and key objectives
in such a way that employees buy in. To be an effective management tool, the goals and
objectives serve as a ruler against which management decisions are measured. The goals and
objectives lead to specific task plans and budgets (of both money and staff time) so that they link
with policy priorities. Using office goals and objectives, senior leaders can ensure that financial,
contracting, software purchase, travel, staffing, and training plans all coordinate under the BSRP.
Further, the work requirements of individuals align to eDiplomacy’s goals and objectives. An
established mission statement with identifiable goals and objectives will assist eDiplomacy in
setting their priorities, guiding their work, and properly allocating staff resources based on needs.

Recommendation 2: The Office of eDiplomacy, in coordination with the Office of the Chief
Information Officer, should develop and disseminate goals and objectives for its office,
divisions, and branches/teams to define their core functions and develop corresponding
operational plans. (Action: eDiplomacy, in coordination with CIO)

Leadership

        EDiplomacy and its current leadership win praise from many in the Department for
creativity, energy, and positive attitude. One IRM executive suggested that an important measure
of eDiplomacy’s success is the degree to which its services or consultations are sought out. In a
story the inspectors encountered several times, eDiplomacy was commended by a senior official
at the White House as "the go-to group" for the Open Government initiative and for making the
Department “one of the most responsive” of the Federal agencies. Other senior Department
officials extolled eDiplomacy’s leadership for being highly responsive to last-minute, high-level
taskings.

        The current director of eDiplomacy, an FS-01 economic officer, arrived in July 2009. In
the words of senior IRM executives, “he has unique and desirable skills that make him perfect
for the job” and "has been pivotal to eDiplomacy's success." He had accepted the position before
IRM leadership decided to add CLD to the existing eDiplomacy organization. At that time, in
January 2010, what had been eDiplomacy became DID. Most people still refer to DID as
“eDiplomacy.” Two FS-01 officers serve as deputy directors of eDiplomacy: an economic
officer supervises DID, and an information management officer directs CLD staff.

       Several observers told the OIG team that, prior to the current director’s arrival,
eDiplomacy too often seemed to reflect the personal enthusiasms of who was in charge at the
time. For example, one individual was interested in Virtual Presence Posts, so that became a
focus of eDiplomacy’s efforts. Another had a different project. The current director has brought a
broader, more balanced approach to the job.

        Although the director is genuinely well liked by staff and commended for his enthusiasm
and positive attitude, many eDiplomacy employees question the way he manages the office and
prioritizes tasks.

        The absence of a steady management hand manifests itself in a constantly changing array
of priorities that keep the staff off balance and unsure of what is important. During the
inspection, eDiplomacy management returned from a Department town hall meeting on IRM
                                           6
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

customer service, where the office had reportedly volunteered to review all 300-plus Sounding
Board suggestions submitted to IRM since the Board’s inception, distribute them to the IRM
subject experts, solicit and compile their responses, and provide a report to the CIO. Several
employees wondered what this has to do with eDiplomacy’s mission and why it was not being
handled by front office staff assistants. The inspectors found the pace and introduction of new
ideas, with apparently little regard for eDiplomacy’s core priorities, surprising.

        A number of employees believe the director and his deputies do not know much about
what the employees are, in fact, doing. This was true not only for CLD employees, who believe
office management has no interest in or time for their work, but also for DID employees. They
told stories of nonsensical questions, malapropos introductions, and “drive-by taskings” levied
without regard to the particular individual’s skills or responsibilities. Inspectors observed DID
meetings in which employees bluntly stated that they had wasted time or been unable to get
direction or clear instructions from the leadership. Contractors expressed willingness to do
whatever is required but also firmly insisted upon the need for guidance.

        The office leadership has proved adept at finding resources, but not necessarily the most
appropriate ones for the job at hand. The director has often recruited an available and talented
individual without determining beforehand what skills are needed most for current projects. He
argues that a deep pool of talent with new ideas is highly appropriate to an office charged with
promoting innovation.

        The director describes himself as entrepreneurial and able to accomplish tasks quickly.
His staff agrees that the director is adept at getting things done and motivating people. The office
leadership, especially the director, is supportive of staff in terms of giving credit where it is due,
ensuring fairness, and recognizing others’ achievements. The director and his deputies are
accessible, approachable, and part of the team, as evidenced by the director taking a cubicle in
the center of the office, as Intel CEO Andy Grove famously did. The director notes that an open
environment allows people to communicate directly and solve problems in a collaborative
fashion. This arrangement also discourages others from complaining about their own space.

        The director recognizes that his effervescent approach may sometimes be disruptive and
is open to suggestions for improvement. In such a situation, one might expect the deputies to
bring order to the work environment; however, they have not been fully successful in this
respect.

       An important element of eDiplomacy’s mission is bringing new technology solutions to
bear on core Department tasks. Important as it is to advocate for new technologies in the
Department, it is equally important to improve the way age-old tasks are performed. In many
respects, the Department conducts its work in much the same way today as it did a century ago.
Reporting cables, media summaries and economic data—not to mention consular requests and
human rights reports—pour into Washington every morning from the embassies and consulates
around the globe. Junior officers flag the most interesting or relevant for their office director,
who in turn brings a few items to the attention of the Deputy Assistant Secretary, and so on.

       Lost within that massive intake of information are significant details and highly relevant
emerging patterns. EDiplomacy could achieve the second half of its core mission by seeking
innovative ways for the Department to conduct its work and leverage its existing resources. One
                                            7
                               SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

starting point would be researching how other government agencies filter large amounts of data.
Another would entail consulting the academic community and/or the private sector. For example
(and staying within IRM’s area of responsibility), eDiplomacy could reach out to other Federal
agencies and the private sector to learn from their experience and take advantage of their current
research in areas such as “data mining”; the identification of patterns of contextual relationships
in large quantities of text; and predictive signaling of growing social and political discontent,
based on the analysis of social media flows in foreign environments.

Recommendation 3: The Office of eDiplomacy should develop a plan to reach out, in keeping
with its own fundamental mission, to other Federal agencies and the private sector in pursuit of
technologies and innovations that could significantly transform the Department of State’s ability
to exploit its existing information resources. (Action: eDiplomacy)

Organizational Structure

          Subsequent to delivery of the 2008 Gartner Group study, 1 a significant realignment
occurred within IRM, which led to eDiplomacy experiencing most of its staff growth with the
merger of CLD into the existing organizational structure. EDiplomacy is now broken into two
divisions: DID and CLD. DID is informally broken into three teams: DiploTech, Knowledge
Leadership, and Policy and Outreach. CLD is organized into three branches: Domestic, Regional,
and External Affairs.

Diplomatic Innovation Division

         The original eDiplomacy office became what is now the DID portion of eDiplomacy. It is
the user advocate for diplomats, analysts, managers, and locally employed staff, helping them to
improve their ability to access, contribute, and share knowledge. Several signature projects
characterize the eDiplomacy knowledge management strategy, including Diplopedia,
Communities@State, and Corridor. DID also provides policy, management, and technical staff
support to Web initiatives, such as the Virtual Presence Post program, and senior leader
initiatives, such as TechCamps and the Virtual Student Foreign Service. These DID projects,
along with others, are detailed later in the report.

         Three teams were informally established in December 2010 within DID to bring some
order to the work. However, the arrangement is still described as an experiment. As discussed
later in the report, eDiplomacy has no formalized team structure within DID. To address this
matter, the OIG team makes recommendations in the main DID section of this report .

Customer Liaison Division

       CLD was established to provide a single point of contact to facilitate the resolution of
customer service issues between bureau customers and IRM support groups and to help
coordinate IRM resources to fulfill bureau information technology requirements. CLD staff
members handle all IRM customer issues and resolve information technology support matters for
customers. CLD is also separated into three branches: Domestic, Regional, and External Affairs.

1
 A Report for the Department of State – IRM Organization Alignment Initiative Change Management Plan, January
2, 2008.
                                              8
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        CLD’s current organizational placement in eDiplomacy does not afford it any
advantages. CLD was merged with eDiplomacy in an effort to colocate personnel “with an up
close view of the Department’s [information technology] pain points” with those who develop
and launch innovative and intuitive tools to solve those problems.” The intent was to achieve a
synergistic effect, whereby CLD liaisons, through their interactions with customers, observe and
gather requirements that could be brought to DID’s attention for quick development of an
innovative solution. However, in 18 months it has not happened, there is no indication that it will
happen, and there is no plan to make it happen. Not one case was brought to the OIG team’s
attention in which DID development activities resulted from CLD customer interaction. In fact,
such an outcome may not be realistic, as the work of the liaisons typically deals with operational
issues such as hardware and bandwidth, not the type of innovative applications for diplomats that
DID is supposed to develop. This is confirmed by the liaisons themselves, who universally stated
that they interact more on a daily basis with IRM operations staff than with DID staff.

         The reorganization has received a mixed reception among CLD staff members, with the
majority opinion being that CLD was better off in its previous organizational placement under
the Customer Service Office in IRM operations, where it had greater visibility among IRM
personnel; a more direct channel to the deputy CIO for operations; and more clout for navigating
the bureaucratic channels of IRM. However, others claim that under IRM operations, CLD
lacked the independence to be a good customer advocate; the customer service mentality of IRM
operations did not suit the liaison function; and, in cases of disputes between the customer and a
service provider, the customer would always lose. As CLD does not appear to have lost any
ability to collaborate with IRM operations staff and has also gained a measure of independence
to better act on behalf of customers, the best place for CLD would be outside IRM operations,
but in a position with enhanced visibility. Despite the additional burden that would be placed on
the Deputy CIO, the relocation of CLD to BMP would afford it such visibility and improve its
leverage within the organization.

Recommendation 4: The Bureau of Information Resource Management should relocate the
Customer Liaison Division so that it reports directly to the Business Management and Planning
Directorate. (Action: IRM)

        Although the External Affairs branch may have once performed a simple liaison function
with other agencies on technical issues, its work has expanded to include matters that affect
cyber security policy issues, international agreements for the United States, and major strategy
issues for Department leadership. For example, the External Affairs branch manages interagency
coordination on communications and information technology for the Department; negotiates with
the Diplomatic Telecommunications Service Program Office; provides support to and
coordination/collaboration with the Department of Defense on communications and information
technology issues; supplies policy guidance and support on bilateral and multilateral secure
communications links in support of the President and the Secretary; represents the CIO in
negotiations; and monitors agreements with U.S. foreign affairs agencies as well as with foreign
nations and international organizations. The External Affairs branch has saved the Department
several hundreds of thousands of dollars by concluding memoranda of agreement to cooperate
with other U.S. Government agencies by sharing available bandwidth on telecommunications
circuits.



                                           9
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

        During survey meetings, members of the External Affairs staff demonstrated a significant
command of their areas of expertise and seemed to have made considerable contributions to
IRM’s relationships within the interagency community and to have maintained crucial
communications technology relationships with official government representatives from other
countries. The External Affairs branch has little day-to-day interaction with eDiplomacy but
appears to receive most of its guidance from IRM elements or directly from the CIO.
Consequently, it would be more appropriate for the External Affairs branch to be located not in
CLD but attached to the Office of the Chief Information Officer, which it currently de facto
reports to and serves.

Recommendation 5: The Bureau of Information Resource Management should relocate the
External Affairs branch from the Office of eDiplomacy to the Office of the Chief Information
Officer. (Action: IRM)

Staffing

        EDiplomacy began in 2002 with fewer than six staff members and maintained this
staffing level until 2009, when tremendous office growth occurred, including the addition of
CLD. EDiplomacy leadership has also significantly increased DID staffing with full-time-
equivalent employees, contractors, and a variety of short-term personnel such as interns, Y-tour
personnel (assigned for 1 year), and people with medical or other temporary assignment delays.
CLD staffing has remained relatively constant despite the turmoil of IT Consolidation. 2 The
current (May 2, 2011) staffing pattern provided by the Bureau of Human Resources shows
eDiplomacy with 99 positions (60 in CLD) encumbered by 75 full- and part-time employees plus
17 full- and part-time contractors.

        This rapid and relatively unstrategic reorganization of and growth in eDiplomacy has had
two consequences. First, office leadership has avoided making hard decisions about whether DID
should accept new tasks or continue to support already proven innovations. Unconstrained by
staffing limits, DID always seems to have staff available to pick up an existing project or take on
a new one. Second, DID is continually hiring temporary staff members who rely on permanent
staff for training and assistance with logistical matters but who then leave after only a few weeks
or months. This continual influx of new employees, welcomed and even sought by leadership,
places considerable burden on the stable part of eDiplomacy’s workforce. This heavy reliance on
temporary staff is also disruptive to operations because permanent employees do not know the
skills or backgrounds of new employees and thus are not sure how best to incorporate them into
existing projects or to leverage their talents throughout the office’s portfolio.

       In the absence of fully developed performance and output metrics, it is difficult to judge
whether eDiplomacy staffing levels are adequate or excessive. However, it seems clear that staff
growth in recent years has been opportunistic rather than strategic.




2
 On July 18, 2007, the former Secretary of State announced the decision to consolidate the Department’s desktop
computer services and support under IRM to allow for an optimized and cost-effective IT infrastructure that
supports agency missions and customer-centric services.

                                              10
                                  SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

Recommendation 6: The Office of eDiplomacy should conduct an analysis of its staffing levels
to determine those sufficient for supporting core functions and sustainable projects. (Action:
eDiplomacy)

        EDiplomacy does not have one primary individual handling management and
administrative functions such as staff orientation, space allocation, budget and funding, check-in
and check-out procedures, equipment needs, position descriptions and inventory, and other
general services duties. During the inspection, a Y-tour individual was responsible for these
matters and, according to staff members, was filling a void within the office. However, that
individual has since left eDiplomacy, resulting in the interim distribution of such responsibilities
among the leads for the DiploTech and Policy and Outreach teams. Office management is aware
of the problem and has identified several possible solutions, including designating the
responsibilities to newly arrived Y-tour personnel or waiting for the next rotation cycle of
Foreign Service officers and filling the position with a management cone specialist. The OIG
team advised eDiplomacy management of the merits of having a permanent individual to provide
needed stability to an office with constant staff turnover.

Recommendation 7: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should designate one permanent individual to handle
management and administrative functions for the office and rewrite that individual’s position
description to reflect those duties. (Action: eDiplomacy, in coordination with A/EX)

        As mentioned previously, one of the key elements handled by the Y-tour employee was
eDiplomacy’s orientation program. Because the office is fast paced and has numerous projects in
play at any given time, it is imperative that new employees get up to speed quickly. However,
numerous staff members noted that an orientation program was either absent or insufficient.
Some employees, however, felt their orientation was proactive and thorough. This inconsistency
needs to be addressed so that all new eDiplomacy employees get a strong start and add value to
projects immediately.

Recommendation 8: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should develop a thorough orientation program for new
employees that covers office structure, operations, and projects and that integrates those
employees into existing team structures. (Action: eDiplomacy, in coordination with A/EX)

        Although the evaluation of the administrative support services provided by the Executive
Office of the Bureau of Administration is outside the scope of this inspection, the OIG team has
made several recommendations on shortcomings of administrative services. 3 Collectively, these
recommendations culminate the need described earlier to have one primary individual handling
management and administrative functions for eDiplomacy. In 2006, as part of a Center of
Excellence initiative to colocate these very management and administrative services, the Bureau
of Administration took over the Executive Office functions of IRM. The need to have some of
these functions returned to an IRM office suggests that the Center of Excellence model may not
have worked as intended.



3
    See Recommendations 7, 8, 11, 12, 15, and 28 of this report.
                                                 11
                                     SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Performance Measures

         EDiplomacy lacks officewide performance measures. CLD and DID have neither fully
defined "success" nor consistently developed measures (output and outcome) to enable them to
effectively demonstrate the value of their programs. This approach is inconsistent with the
Department's official evaluation policy, which states that " ...evaluation is a key aspect of
program management, and a robust, coordinated evaluation function is essential to our ability to
document program impact, identify best practices, help assess return on investment, provide
inputs for policy and planning decisions, and assure performance and accountability for the
American people.” 4 The eDiplomacy staff noted repeatedly that developing performance
measures for diplomatic activities and innovation is difficult. Although agreeing to a point, the
OIG team noted that much of eDiplomacy’s technology-based, computer-managed activity lends
itself especially well to measurement and that one must first define success in order to measure
it. To quote Lewis Carroll, “If you do not know where you are going, any road will take you
there.”

        Although eDiplomacy tracks basic output metrics for some of its products and services,
the office neither measures outcomes and results nor links them to organizational goals and
objectives. As a consequence, eDiplomacy cannot effectively demonstrate the impact of its
projects and services on Department operations, which, in turn, hinders the office in numerous
ways. CLD and DID are not able to accurately evaluate resource requirements or the efficiency
and effectiveness of their operations. Additionally, when demand for products and services
exceeds available resources, the absence of performance measures makes it difficult to conduct
cost-benefit or tradeoff analyses. Further, as will be pointed out later in this report, information is
not collected that would help eDiplomacy determine when a product has fulfilled its mission and
should be retired to free resources for other endeavors.

       The ramifications of this weakness are significant for the office. Specific findings
regarding performance measurement are discussed in greater detail within the main DID and
CLD sections of the report.

Outreach

       EDiplomacy has excelled in calling public attention to DID achievements. Few
Department offices can footnote their internal Web page with 17 or more published articles in
national and niche media with titles like “Who Needs Cables? A Wiki for Diplomats” or “State
Department Moves Ahead with Facebook-style Site.” EDiplomacy’s headline quotient causes
some in the Department to take umbrage at the attention received from national media such as
the Huffington Post, Wired, and the New York Times. That said, the inspectors judge that the
Department’s reputation in Washington technology circles has improved since 2002, when the
Department was routinely scorned for its dependence on outdated systems and reluctance to
embrace the Internet. To some degree, this improvement is due to articles in the mainstream
media about eDiplomacy and the introduction of social media tools.

       Yet, despite a steady pursuit of outside validation, eDiplomacy lacks a strategic approach
to marketing its innovations within the Department. There is no comprehensive plan for reaching

4
    Department Notice 2010_11_154;, dated November 23, 2010.
                                              12
                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

out to users with technology solutions. During the inspection, the office launched a new
professional networking platform called Corridor. The Corridor communications rollout
documentation listed a few immediate activities, including a video by the Secretary introducing
Corridor to Department employees; however, more could be done for other eDiplomacy
products. Even with well-established eDiplomacy products such as Diplopedia, eDiplomacy
needs to think of its market as a dynamic audience that must be addressed anew each day.

        Providing business advice to customers is inherent to CLD’s work and a major
component of DID’s. Through daily contact with bureau information management professionals
and users, CLD staff has constant opportunities not only to seek IRM solutions but also to advise
customers on available applications and technology solutions. DID has had significant success in
advising EUR’s Southeastern Europe office about work process organization and collaboration
and has won praise for helping the Bureau of Human Resources with process management for
the Combined Federal Campaign. Yet eDiplomacy does not have an officewide, robust outreach
strategy designed to make this “business advising” service and other accomplishments better
known to users in Washington and abroad.

Recommendation 9: The Office of eDiplomacy should develop a general outreach plan based
on its overall goals, objectives, and services. This plan should include, at a minimum, marketing
strategies that are tied to success indicators for each individual project and service. (Action:
eDiplomacy)

Security Controls

        EDiplomacy staff members who perform ISSO responsibilities do not have the required
ISSO designation letters. As a consequence of IT Consolidation, eDiplomacy is responsible for
handling out-of-scope 5 ISSO functions for all of its Web applications. These functions include
handling certification and accreditation, systems maintenance, and physical security of office-
specific applications and systems. In accordance with Foreign Affairs Manual standard 12 FAM
622.1-1 a., an ISSO and alternate ISSO must be designated in writing to manage the information
systems security program. A designation letter will ensure that the appropriate individuals are
adequately recognized by eDiplomacy and the Department as having the responsibility to
maintain and perform needed information security functions.

Recommendation 10: The Office of eDiplomacy should obtain formal designation letters for
their assigned information systems security officers. (Action: eDiplomacy)

        EDiplomacy also does not have sufficient control over expendable supplies and is
spending seemingly excessive amounts on items such as toner cartridges and photo paper.
However, because supplies are purchased on an as-needed basis, there is insufficient information
to determine appropriate spending levels. The office is considering a software package to
streamline these purchase activities. Stronger controls over supply procurement and storage
would facilitate better expense control.




5
  Out-of-scope areas are those identified by the IT Consolidation Program Office as remaining the responsibility of
the consolidated bureau to perform and manage.
                                               13
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 11: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should establish controls over supply procurement and
storage. (Action: eDiplomacy, in coordination with A/EX)

Funding Request Process

        DID does not have a defined and enforced funding request process owing in part to the
incomplete merger of CLD with eDiplomacy. Staff members often request quick turnarounds,
sometimes as little as 1 week, for travel funding authorizations for events and conferences, even
though a normal funding request takes approximately 3 weeks to receive the appropriate
clearance and approval from the Department. Despite eDiplomacy management’s efforts to
explain the proper procedure during staff meetings, requests for expedited service continue. The
absence of a standardized funding request procedure not only creates an unnecessary burden for
financial management staff but also may result in insufficient documentation to support office
travel expenses and the possible over allocation of funds.

Recommendation 12: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should define and enforce a funding approval process to be
used for all travel requests. (Action: eDiplomacy, in coordination with A/EX)




                                         14
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Diplomatic Innovation Division
        As mentioned earlier in the report, the original eDiplomacy office became what is now
the DID portion of eDiplomacy. Known within eDiplomacy as the user advocate for diplomats,
analysts, managers, and locally employed staff, DID helps users to improve their ability to
access, contribute, and share knowledge. It implements and manages a wide array of projects and
services for eDiplomacy, including many innovative ideas from the Secretary. Three teams have
been informally established within DID: DiploTech, Knowledge Leadership, and Policy and
Outreach. Each makes its own contribution to eDiplomacy’s overall mission.

Diplomatic Innovation Division Teams

DiploTech Team

       DID’s DiploTech team is heavily involved in supporting initiatives begun by the
Secretary of State, including Civil Society 2.0 and Virtual Student Foreign Service programs.
The team coordinates on a regular basis with internal and external entities, including
nongovernment organizations, Federal government agencies, private industry, and Department
bureaus and posts.

        The DiploTech team is composed of 12 individuals with diverse backgrounds, including
Civil Service and Foreign Service full-time staff, intermittent personnel (Franklin Fellows, Y-
tour staff, and interns) and contractors. Similar to other elements within eDiplomacy, the
DiploTech team has high morale, and its members are energetic and enthusiastic about their
projects.

        The DiploTech team is led by a veteran Department employee who has served in
management at a variety of levels. The depth of knowledge and skills the team lead brings to the
DiploTech team is remarkable. In addition to handling team matters, the lead also oversees the
budget and funding, performs out-of-scope ISSO responsibilities, and manages the staffing
patterns for eDiplomacy.

       The FY 2011 goals and objectives for the DiploTech team’s work are still in draft form
and thus incomplete. As currently drafted, the goals and objectives lack adequate specificity and
alignment with overarching eDiplomacy mission and goals, which themselves need revision.
(See Recommendations 1 and 2.) DiploTech team members acknowledge that the document
needs refinement but also note that the lack of guidance from eDiplomacy management on the
proper format and structure has contributed to the incomplete identification and documentation
of DiploTech’s team goals and objectives.

         In accordance with the Foreign Affairs Handbook standard 3 FAH-2 H-122.1, a
supervisor should define long-range, intermediate, and short-range goals; establish principles that
all actions must follow; develop detailed plans of action to achieve goals; and outline steps to
accomplish stated tasks. Proper guidance from management will facilitate the completion of
well-defined team goals and objectives and focus DiploTech team efforts and projects so that
they are in line with eDiplomacy’s overall mission. See the Executive Direction section of this
report for a recommendation on officewide goals and objectives.

                                          15
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

         The DiploTech team lead does not provide continuous and consistent feedback to team
members. Although this hands-off management style has allowed members to be innovative and
creative and indicates the level of trust the leader has in his team, it also has negative effects. For
example, a team member has engaged in outreach activities with other Department offices on
eDiplomacy efforts, including the development of a platform tool, that have yet to be reviewed
or critiqued by the DiploTech team lead. Additionally, team members working on a particular
project have approached management for additional team resources without informing the team
lead of their recent event outcomes and presenting their justification for additional staff. Further,
the OIG team observed a conference call between a project team and an external project partner
in which the project team members and eDiplomacy management spent considerable time
discussing project milestones, which should have occurred much earlier in the process.

        Per 3 FAH-2 H-124.4 E. (2) and 3 FAH-2 H-125.5 a., a supervisor should give
employees frequent feedback so that employees are aware of what they are doing, praising and
encouraging them in their efforts and noticing deficiencies for discussions. The OIG team
understands that many of the DiploTech team members do not directly report to the team lead
under the current team structure; however, the management and completion of DiploTech
projects fall under the responsibility of the DiploTech team lead. As such, continuous and
consistent feedback with team members on project status will provide all parties with the
assurance that the team’s goals and objectives are being met, not only for the DiploTech team
but throughout DID.

       Informal Recommendation 1: The Office of eDiplomacy should counsel Diplomatic
       Innovation Division team leaders to provide continuous and consistent feedback to their
       employees on projects and initiatives.

Knowledge Leadership Team

       The Knowledge Leadership (KL) team focuses on the core eDiplomacy mandate to foster
knowledge management at the Department. The Department’s highly mobile and dispersed
workforce benefits from tools that facilitate information sharing, knowledge transfer, and long-
distance collaboration. Several of eDiplomacy’s cornerstone products—Diplopedia,
Communities@State, iNet Search, and the newly launched Corridor—address these needs and
are managed by the KL team.

       The KL team’s morale is quite high, and team leadership is strong. The staff members
like what they do and the people with whom they work. They believe in the eDiplomacy mission
and are dedicated to providing innovative, yet functional, knowledge management tools to the
Department. Collaboration and cooperation are hallmarks of the team. Although each team
member has primary areas of responsibility, they all contribute to team projects and pitch in
where needed.

        Compared to DID overall, staffing on the KL team is relatively stable. It currently
consists of one Civil Service employee serving as team coordinator, one Y-tour entry-level
Foreign Service officer, a Foreign Service office management specialist, and nine contractors.
The skill sets of the office are divided between technical staff and those engaged in user support,
content development, and community outreach/engagement. The technical staff also serves as a
resource for other DID teams, which can complicate resource allocation and management. Later
                                           16
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

in this report, the OIG team addresses the need for consistent project management to address
issues related to resource allocation.

        The KL team has made a solid effort to document work objectives and activities, but has
been hindered by the absence of an FY 2011 office-level goals and objectives framework. This
absence seems to have led to the omission of team-level goals and periodic confusion between
objectives and activities. This issue must be addressed in order to develop a workable
performance measurement plan (see Recommendation 17). That said, the inspectors were
impressed that the team linked all of its activities and objectives to goals and objectives in the IT
Consolidation and Department strategic plans, thereby demonstrating an awareness of the role of
the team and its activities within the larger organization that it supports.

        Although the KL team is responsible for providing, managing, and evaluating the utility
of knowledge products and services used Departmentwide, the vast majority of the team has
spent little or no time in the field. Team members attempt to compensate by using other means
(surveys, telephone, email consultations, etc.) to establish relationships with colleagues in the
field; however, they have a limited first-hand understanding of embassy operations, information
needs, and the use of knowledge management tools in the field. This knowledge deficit
somewhat limits the team’s ability to tailor knowledge solutions to field needs. It also hinders
outreach efforts related to eDiplomacy products and services. Identifying real-life business
challenges and determining which eDiplomacy products can be used to meet them will not only
enable eDiplomacy to serve its customer base better but will also allow eDiplomacy to share
solutions among customers and subsequently promulgate best practices throughout the
Department.

         Over the past 2 years, only three team members have traveled to conferences outside the
United States. The overseas activities of these individuals illustrate the potential value of teams
spending more time in the field. The Wikimania Conference in Gdansk, Poland, provided
opportunities for two team members to combine conference attendance with site visits and
consultations with Embassies Stockholm and Tallinn. While they were in the field, team
members conducted outreach and training activities related to KL team products; worked with
post on specific projects that improved use of KL tools; gathered knowledge management and
social media best practices to share with other posts; and, under the sponsorship of the public
affairs section, met with local government and technology sector representatives to discuss
knowledge management and social media issues. An Advanced Learning Institute conference on
Social Media and Government in Ottawa, Canada, provided another team member with the
opportunity to engage officials of Foreign Affairs and International Trade Canada (formerly
Canada’s Department of External Affairs) and share with them lessons learned and best practices
for using social media tools to meet their organizational goals and objectives.

       Informal Recommendation 2: The Office of eDiplomacy should identify and support
       travel opportunities for staff that maximize return on investment by combining
       conference attendance and presentations with outreach and evaluation activities at
       overseas posts.

       The KL team has identified and is tracking a wide variety of metrics for its products.
Output measures have been identified and, for the most part, are being tracked and reported.
These measures, along with informal surveys conducted by the OIG team, indicate wide usage of
                                          17
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

and appreciation for the KL team’s knowledge management tools within the Department.
However, current measures focus more on outputs than on longer term outcomes and results.
EDiplomacy notes that knowledge management programs are fairly easy to measure in terms of
activity; however, every peer organization, both in the government and the private sector, that
eDiplomacy has benchmarked against has had difficulty determining outcomes, because so much
of what knowledge management must accomplish occurs at the local level. There are currently
no clear, systematically collected measures of the impact of these products on Department
operations. The KL team could improve these measurements by formalizing the collection of
anecdotal evidence to support outcomes.

        The KL team is launching a new analytics initiative that will build on and improve
current performance measurement efforts by providing consistent and systematic analysis of
usage data across projects. The KL team anticipates that the initiative will improve the quality
and efficiency of data gathering and analysis and will allow the focus of more attention on
outcomes and results. Initially, four projects will be included in the initiative—Diplopedia,
Communities@State, Enterprise Search, and Corridor. Ultimately, any of DID’s Internet-based
projects could be included.

        As envisioned, the analytics initiative will provide consolidated output measures such as
the number of articles and edits in Diplopedia; the number of community subscribers, entries,
and comments for communities in the Communities@State program; and the number of profiles,
visitors, connections, and groups in Corridor. Additionally, the initiative will identify the
geographic location of all users and provide historical data on each measure, which will enable
trend analysis.

         As noted in the Executive Direction section of this report, outcomes and results are
critical to evaluating program success and value to the Department. A recommendation related to
officewide performance measurement is included in the Project Management Methodology
section of this report.

Policy and Outreach Team

       The Policy and Outreach (P&O) team lists the following among its goals: improve
customers’ understanding and perception of IRM and its services; increase awareness of social
media as tools for diplomacy; promote adoption of these tools as an integral part of the
formulation of foreign policy and management of the Department; and continue to support the
development of innovative technology and work to change the institutional barriers to its
adoption.

        A Foreign Service officer leads the team of one Civil Service employee, two full-time
Foreign Service officers, a Foreign Service information management specialist, six contractors
(including two former management-cone Foreign Service officers) and one part-time retired
Foreign Service officer. All team members expressed enthusiasm for their work and morale is
high. Members bring different skills and experience to the job, but, because of their widely
different backgrounds, they sometimes do not integrate their work fully with fellow team
members. This problem may be due to the confusion about priorities in eDiplomacy as a whole.



                                         18
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Several P&O team projects are well under way. One example is the SharePoint Users
Group, for which eDiplomacy organized, in coordination with IRM’s System Integration Office
and the Foreign Service Institute, a very successful Departmentwide conference, with some posts
participating by video. Even though the removal of institutional barriers is among the team’s
goals, some projects, such as access to desktop video conferencing, have lagged due to
bureaucratic obstacles. It was unclear to OIG inspectors why the team stopped pressing forward
to complete a project that is close to success and a high Department priority. The Virtual
Presence Posts project also seems to be dormant, now that some posts have either dropped the
original static Web sites, focused on strategic personal contacts, and/or moved on to other, more
interactive technologies, such as Facebook. The root of these inconsistencies in focusing on
goals and objectives points to a lack of direction from eDiplomacy management regarding
priorities and resource management

       The team is working on developing training modules for eDiplomacy products and has
managed to include briefings on eDiplomacy products in some Foreign Service Institute training
courses. For example, the inspector observed DID team members give a concise, focused
presentation at the Foreign Service Institute to a class of new Foreign Service officers, using
information highlighting specifically those products that would be useful and relevant for
beginning Foreign Service officers.

        The P&O team lead is in the process of training some team members to be business
practice advisors for offices and posts. They have already started a pilot program with EUR’s
Southeastern Europe office to help desk officers use collaborative knowledge management tools
to organize and streamline their work. This initiative has the potential to be a very useful
addition to eDiplomacy’s mission, as long as the business practice advisors are well versed in
applying the technical tools. See the Diplomatic Innovation Division Products and Services
section for a more detailed discussion of this project.

        The P&O team currently has a public affairs officer whose role does not fit within
eDiplomacy. This officer spends the vast majority of his time consumed by daily contact with the
IRM front office and managing public affairs for all of IRM. Although not officially reporting
directly to the CIO, the public affairs officer consults with the CIO on a regular basis and assists
with public appearances, logistics preparations, and event attendance. Additionally, the public
affairs officer handles other duties, including the drafting, coordinating, and clearing of press
guidance for IRM, as well as liaison with the Bureau of Public Affairs. Ideally, the public affairs
officer plays an integral role in communicating the CIO’s vision to IRM staff, the Department,
and beyond. Based on the level of work performed by the public affairs officer, the position
would be better aligned with and more effectively serve IRM if it were relocated to the CIO’s
front office.

Recommendation 13: The Bureau of Information Resource Management should rewrite the
public affairs officer’s position description so that this officer reports directly to the chief
information officer. (Action: IRM)

Team Structure

        With the rapid growth of DID came the need for a more workable structure, which led to
an informal organization of DID personnel into the three aforementioned teams: DiploTech,
                                          19
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Knowledge Leadership, and Policy and Outreach. DID employees often work collaboratively
across the team structure, which they feel adds clarity and direction to their work. The present
team structure has not been formalized, however, causing some team members to complain of
uncertainty in terms of their reporting structure and alignment within the office. A formalized
team structure will empower team leaders with more direction and provide the employees with
proper feedback.

Recommendation 14: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should formalize the Diplomatic Innovation Division team
structure to include clear supervisory lines. (Action: eDiplomacy, in coordination with A/EX)

        Additionally, only one of the three designated team leaders holds a supervisory
management position. Because of this inconsistency, not all team members report directly to
their team leaders, as their direct supervisors may be elsewhere within eDiplomacy management.
This arrangement has lead to issues with project priorities, internal communication and feedback,
and resource allocation.

Recommendation 15: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should develop position descriptions for team leaders to
formalize management and oversight responsibilities and make position grades commensurate
with their duties. (Action: eDiplomacy, in coordination with A/EX)

Project Management Methodology

         DID has not incorporated a project management methodology into its projects and
initiatives. Specifically, the division does not uniformly use appropriate project management
techniques to ensure that potential projects are appropriately assessed, prioritized, planned,
implemented, and evaluated. The formal processes used in DID for project selection,
development, and implementation are inconsistent at best and nonexistent at worst.

        DID is known for its ability to innovate and respond to short-turnaround taskings from
the highest levels of the Department. 6 EDiplomacy’s director identifies opportunities to address
larger Department needs and volunteers to take on new initiatives. As new mandates and
opportunities arise, however, they are not clearly planned, managed and prioritized. For example,
eDiplomacy management does not review its projects portfolio to determine trade-offs when new
projects are added. Staff is uncertain whether a new idea is just that or whether it will become a
major new office initiative. This lack of a strategic approach puts the staff at an obvious
disadvantage of not knowing what the office’s priorities are, how or when they might change,
and whether staff work is clearly meeting the most important needs of the Department. Also
absent are open communication and transparent decisionmaking regarding project prioritization
and resourcing.

         To address this problem, DID needs to implement a systematic approach to project
initiation and management that conforms to the standards outlined in 5 FAM 620 Information
Technology Project Management and 5 FAH-5 H-200 Project Management. According to these

6
  For example, in response to a mandate from the Secretary, eDiplomacy worked with the Executive Secretariat to
launch the Sounding Board in 2 days.
                                              20
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

standards, DID’s methodology should incorporate key project management elements, including
performing a cost benefit analysis; identifying user, system and business requirements;
identifying already existing alternatives; confirming key stakeholders; determining appropriate
control gates for management review and approval; and developing pertinent project
documentation. A well-defined project management methodology will foster the development of
projects that are in line with overall management and office goals and objectives.

        Performance measurement is a key aspect of project management. At the outset of a
project, DID needs to define project objectives and how to measure project results. Project
measures cannot be limited to outputs but should include longer term desired outcomes. DID
must be able to assess the impact of a project on the Department and its operations in order to
determine the project’s continued viability and value. The OIG team did not find established
performance measures for some DID projects. In many cases, eDiplomacy staff has not defined
success in accord with its mission statement and has not translated that concept into key
performance indicators for each project and product. It is difficult even to begin to measure
success if the project managers and supervisors have not insisted on defining what constitutes
success.

        The OIG team observed several examples of limited performance measures. For example,
Diplopedia, the online employee-written encyclopedia of Department information, is one of the
highest profile accomplishments for this office. Although eDiplomacy staff members are able to
report how many pages Diplopedia contains, what pages are viewed most frequently, and how
often pages are edited, they are unable to say much about how Diplopedia is used, where users
come from, or the relative value users derive from Diplopedia articles. As another example,
Tech@State conferences attract a vast number of participants and amount of press attention, but
the OIG team could not find any other measures of success or evaluation of the impact these
events have on the Department.

         Without a defined and implemented project management methodology, DID team
members are also experiencing difficulty in determining their work priorities. EDiplomacy
management’s willingness to accept all tasks and volunteer staff for more, making the most
recent assignment the highest priority, has begun to strain staff resources. Although some tasks
are intrinsically more important than others, many fall to eDiplomacy simply because no one else
is willing to take on the idea. Many DID employees expressed having difficulty in planning or
measuring work output; others describe themselves as confused or, in some cases, simply
lacking direction about what IRM and eDiplomacy management want them to do next or
wondering whether what they are doing matters. Team leaders and members noted
management’s inadequate communication of eDiplomacy’s priorities. A project management
methodology should help address this issue for DID staff and bring some direction to
management decisions.

        The ownership of projects is another element that needs to be considered by eDiplomacy
management, and a project management methodology will assist the office in making such
determinations. As part of the planning process, DID should determine whether it will maintain
operational responsibility for projects or whether it is more appropriate to turn over operations to
another element within IRM or the Department. DID’s mandate to foster knowledge
management may make it the natural business owner for enterprisewide knowledge management
tools, but there may be other programs that should be transitioned to more appropriate business
                                          21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

owners. (See the Virtual Student Foreign Service section for further discussion.) All systems
eventually reach the end of their usefulness. Sometimes this is because newer technologies are
better suited to perform the same or similar functions or because the needs of the organization
change. At other times it can be because the project does not achieve intended results. Plans for
all DID projects should address what factors will be used to determine when the project
lifecycle’s end point has been reached.

         When adopting a project management methodology, it is important for DID to remember
that project management techniques can be scaled and tailored to fit the specific nature of a
project and its sponsoring organization. Use of a standardized project management methodology
is not the death knell for agility and innovation. Project management tools and processes will
help DID manage its vast array of initiatives, appropriately allocate and oversee resources, and
measure project performance.

Recommendation 16: The Office of eDiplomacy should implement a scalable project
management methodology that is consistent with Managing State Projects for all Diplomatic
Innovation Division projects, paying specific attention to elements related to project initiation,
prioritization, and operations phase ownership. (Action: eDiplomacy)

Recommendation 17: The Office of eDiplomacy should develop and implement a performance
measurement plan for Diplomatic Innovation Division projects that clearly articulates project
goals and objectives and identifies output and outcome measures for assessing and reporting
project results. (Action: eDiplomacy)

Diplomatic Innovation Division Projects and Services

        DID staff is involved in a wide range of office projects and innovative ideas. Many of
these projects were conceptualized by the Secretary of State, with eDiplomacy taking ownership
to bring these thoughts to fruition. At the time of the inspection, DID was shown to be engaged
in more than 40 initiatives. The OIG team focused on a number of these, which are explained
further below.

Business Practice Advisors

          The DID P&O team is currently developing a service that uses team members as business
practice advisors who consult with users in Department offices on how to employ knowledge
management tools to streamline and organize workflow. For example, the P&O team worked
closely with EUR’s Southeastern Europe office to develop a classified SharePoint site as a pilot
program for organizing tasks, tracking deadlines, and storing documents for easy internal
collaboration. Shifting the whole office to a SharePoint system required commitment from senior
office management to devote considerable time and effort to changing work processes. Although
still in its inception, the new program seems to have directed processes and workflows and
provided a more efficient way to track tasks and share documents. The DID team invested a
great deal of effort in developing this system for the EUR Southeastern Europe office but hopes
to employ it as a model that can be adapted for regional bureau desks and other Department
offices. DID has not yet devised a project plan or milestones to market this new service. (See the
Outreach section for a discussion of and OIG team recommendation for eDiplomacy’s outreach
strategy.)
                                          22
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Civil Society 2.0

        The Department launched Civil Society 2.0 in November 2009 to support the Secretary of
State’s vision for an initiative to connect organizations with technology-based tools and
volunteers in order to help raise digital literacy and increase the impact of civil society
organizations in the 21st century. Civil Society 2.0 uses connection technologies such as mobile,
Web, and social software Civil Society 2.0 includes two programs—TechCamp and Tech@State.
TechCamp is a 1- to 2-day event for hands on, interactive, and educational training for civil
society groups to learn how to use and integrate tech-based tools into their work. Tech@State
focuses on connecting established leaders, new innovators, government personnel, and others to
work together on technology solutions to advance diplomacy and development as well as
improve the education, health, and welfare of the world's population.

        The project team has drafted a business model and metric approach for TechCamp
events. The business model provides a description of how to prepare and administer such events
and identifies three phases that must occur for a successful event: engage the relevant
stakeholders, execute the conference, and enable the extended conversation. According to the
project team, the intent is for the business model to be robust enough for any organization to
adopt, in case TechCamps do not remain a focus of the Department. The draft metrics approach
for TechCamps outlines a number of ways to evaluate the success of the program. These include
pre- and post-event surveys as well as sponsor funding and engagement in events. The
implementation of problem definitions is another success rating factor, in which the goal is to
have at least 10 percent of the problem definitions make a significant difference for affected
parties. The project team for Tech@State has, on the other hand, not developed any specific
business model or performance measures for administering the program.

        During the course of the inspection, eDiplomacy held a TechCamp in Jakarta, Indonesia,
and a Tech@State event in Washington, DC. According to event post reports, the TechCamp
brought together more than 50 civil society representatives from across Indonesia to learn from
one another’s experiences about natural disasters and climate change and to discuss how
technology and social media can enhance their ability to improve communities. The event
resulted in the collection of more than 20 success stories, which the project team viewed as a
measure of success. The Tech@State event in Washington, DC, entitled Serious Games, brought
together more than 200 attendees and centered on how gaming could be used from the
perspective of psychology, business and design characteristics, education and social change, and
military and government situations. However, eDiplomacy did not have specific success
measures for this event and stated that such measures would depend in the subjective judgment
of the attendees. See the Project Management Methodology section for an overall
recommendation regarding performance measures.

Collaboration Clearinghouse

        Collaboration Clearinghouse is a process accessed through an Intranet portal that is
intended to help users determine which internal collaboration tool addresses their needs. The
portal features a questionnaire for users to specify their particular knowledge management needs.
The completed questionnaire is sent directly to the Collaboration Clearinghouse Working Group,
consisting of two persons from the DID team and two persons from the IRM Systems and
Integration Office, who confer and assign requests to the appropriate IRM office. The portal,
                                         23
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

however, posts a chart of “knowledge tools” that is too general and elementary to be of much
use. Also, DID could not explain how a user would know to contact the Collaboration
Clearinghouse for assistance. Unless DID advertises the Collaboration Clearinghouse broadly
and convinces users that it is a useful service, users will continue to contact eDiplomacy or IRM
directly, where it may be difficult to find the right office to determine the most appropriate
product or service desired. The most practical solution would be for DID to develop a series of
business models or case studies to help determine which tool suits which task. (See further
discussion in the Consulting and Product Integration section.)

Recommendation 18: The Office of eDiplomacy, in coordination with the Bureau of
Information Resource Management, should eliminate the Collaboration Clearinghouse and
replace it with appropriate business models and consulting services for the Department of State.
(Action: eDiplomacy, in coordination with IRM)

Communities@State

        Created in 2005, Communities@State enables Department employees to create
communities of interest and practice to share knowledge and stay connected. Communities can
be hosted either on OpenNet or the Department’s extranet (facing Intelink), which extends
membership to interagency partners. EDiplomacy is in the process of changing the software that
supports Communities@State, which will expand the ability of individual community
administrators to change and manage their communities. EDiplomacy currently supports 100
deployed communities, of which 84 are considered active. There are 15 new communities
pending or under development. Although eDiplomacy tracks basic Communities@State metrics,
such as the number of communities, entries, comments, and page views, the responsibility for
evaluating the success of individual communities rests with the community administrator. Given
the varying goals and objectives of each community, this practice somewhat hampers
eDiplomacy’s ability to measure the value of the Communities@State program overall.

        As already noted, it is important for eDiplomacy to measure the value of its products and
tools and to determine those that are of continuing importance to the Department. As
eDiplomacy adds new social media tools to its portfolio, others may lose relevance. For example,
the newly launched professional network Corridor includes the ability to create groups and
discussion forums. If Corridor membership grows, Department employees may prefer to use
Corridor instead of Communities@State. EDiplomacy must evaluate the impact and value of
each tool to determine whether they are complementary or whether the future success of Corridor
could significantly reduce participation in Communities@State. If the tools are complementary,
it is important for eDiplomacy to articulate the preferred uses of each tool and/or how both can
be integrated to address community/group needs. Performance measurement and product
integration are addressed in the Project Management Methodology and the Consulting and
Product Integration sections, respectively.

Corridor

       Corridor, a professional internal Department networking site, was approved by the
Information Technology Change Control Board in May 2011. Corridor was launched with a low-
key effort on May 20, 2011, at the Department and later at the Foreign Service Institute and is
now available to all employees with an OpenNet account. At the close of its beta test phase,
                                         24
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Corridor had 1,000 members, which quickly doubled to more than 2,000 during the first week
after its launch and expanded to more than 3,000 members by the third week.

        Corridor is modeled as an internal Department site, similar to Facebook. Membership is
voluntary, and the amount of personal and professional information (such as prior posts,
languages, and areas of expertise) that members post is left to the discretion of the members as
long as they follow the terms of use. Members may use Corridor as a means to connect with
colleagues socially or informally, as a mechanism for professional communication. Practical uses
could include activities such as Foreign Service bidders seeking contacts at and information
about posts or office directors reaching out to bidders with certain geographic experience and
language skills. The groups feature could prove to be a more flexible and efficient way of
supporting the current Communities@State project. Corridor is too new to evaluate completely,
but it appears to have the potential for a variety of practical and professional uses. It will be
important to define and measure how Corridor contributes to Department work products and
employee productivity and improves Department operations.

Diplopedia

        Launched in 2006, Diplopedia is the Department’s internal, group-authored encyclopedia.
Anyone with access to OpenNet can create a user account to contribute or edit Diplopedia
articles. The classified version, Diplopedia-S, serves as the ClassNet browser home page. A
read-only version of Diplopedia is available via Intelink. Although eDiplomacy staff contributes
numerous articles to Diplopedia and has created Diplopedia-based information portals on
popular topics, most of Diplopedia’s content is created by individual Department employees. As
of May 2011, there were 4,305 registered contributor/editors and more than 13,900 published
articles. As a user-populated information compendium, Diplopedia’s accuracy, currency, and
comprehensiveness hinge on the active participation of Department employees. Whether this is
the source of Diplopedia’s strength or its great weakness depends entirely on the quality of the
information that users provide.

        During the course of this inspection, OIG inspectors heard both praise for the tool and for
the staff who manage it, as well as frustration over the fact that inaccurate, incomplete, and out-
of-date information sometimes appears in Diplopedia. Although the OIG team recognizes that
wikis, by their very nature, are community generated and community monitored, there are a few
steps that DID can take to mitigate this problem. First, there should be an obvious mechanism for
users to report content issues. Users can currently use the Get Help or Diplopedia Assistance
links, but it is not clear whether content problems should be reported through them. EDiplomacy
has agreed that Diplopedia should include a “Report outdated, inaccurate or incomplete content”
link. (This would mimic the Search link “I did not find what I was looking for…”). Second, DID
should assign a full-time (or nearly full-time) staff member to serve as the Diplopedia content
manager/editor. This person could monitor complaints, create new Diplopedia content when
appropriate (see discussion under the Search Engine section), and reach out to subject matter
experts to correct and update content that does not meet community standards.

       Informal Recommendation 3: The Office of eDiplomacy should provide Diplopedia
       users with a clear and easy-to-use mechanism for reporting out-of-date, inaccurate, or
       incomplete content.


                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 4: The Office of eDiplomacy should designate a full-time or
       nearly full-time staff member to serve as the Diplopedia content manager/editor.

Information Technology Innovation Fund

        The IT Innovation Fund was announced in a Departmentwide cable in January 2011.
Keeping in line with the Secretary of State’s vision for Quadrennial Diplomacy and
Development Review to pursue new ways of doing business, the Department has set aside $1.5
million from the Central Investment Fund for FY 2011. The funding is allocated to projects
proposed by overseas posts and domestic bureaus that showcase well-conceived, high-impact
innovation through the use of existing technologies and processes or the development of new
ones. Funding is competitively allocated based on a series of request elements, including the
anticipated impact, the evaluation and measurement metrics used to define success, and the IRM
strategic priorities supported.

        Funding decisions are made by a panel of representatives from IRM directorates and
offices, as well as the Office of Policy, Planning, and Resources for Public Diplomacy and
Public Affairs and the Office of the Special Advisor for Innovation and Technology.
EDiplomacy administers the program and manages incoming proposals by ensuring the
proposals are written clearly and completely. Further, eDiplomacy responds to inquiries from the
review panel and requests the disbursement of funds following panel approval.

        At the time of the inspection, the panel had met four times, resulting in the approval of
five proposals totaling more than $450,000; an additional proposal for approximately $59,000
awaits final approval. According to IRM senior management, the $1.5 million allocated to the
fund must be used within the fiscal year, as funds may not be transferred to the next fiscal year.

        There is uncertainty regarding whether the IT Innovation Fund will continue into the next
fiscal year. However, before a management decision can be made on the future of the Fund,
several areas identified by the OIG team need to be addressed. Specifically, IRM senior
management and eDiplomacy staff noted a lack of understanding by Department personnel of the
intent of the IT Innovation Fund. As a result, the panel receives project proposals that are not
adequate for or in line with its purpose for approval. Furthermore, there are no set milestones or
performance measures to evaluate program success. IRM senior management has requested that
the Project Services Office create a performance measurement framework for the program—
something that should have been done in the planning stages. Additionally, no set criterion exists
for evaluating and approving project proposals. Proposals are approved or rejected based solely
on the professional judgment of the panel members. As noted earlier in the report, only a
properly documented and managed project with a detailed outreach strategy can provide
sufficient results and benefit for the Department.

Recommendation 19: The Bureau of Information Resource Management should develop and
disseminate a clear purpose and objectives document for the Information Technology Innovation
Fund that includes detailed milestones, performance measures, and approval criterion for project
proposals. (Action: IRM)




                                          26
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Search Engine

         EDiplomacy provides technical search capabilities for the Department’s intranet through
the enterprise search engine Autonomy and individualized search support for Department
Intranet users. The search tool’s main page, iNet Search, provides links and top matches to help
users find frequently searched materials quickly. Diplopedia articles, as well as Department
Notices and other official Department communications, are weighted in search results. Search
performance is monitored and improved by evaluating help requests from the user community,
which users submit by clicking the “I did not find what I was looking for” link on the search site.
An eDiplomacy staff member evaluates and addresses each submission. Frequent requests for
assistance on the same topic spur eDiplomacy staff to create topical information portals on
Diplopedia to guide users to the desired content. Data from February 2011 suggest that, on
average, Department employees conduct 74,000 searches every week. EDiplomacy staff estimate
that it receives an average of 20 requests for search support each week.

         Although anecdotal evidence indicates that many Department employees are dissatisfied
with iNet Search, eDiplomacy staff believes it is successful and points to the steady increase in
its use, the comments received on Search support, and the relatively low number of “I did not
find what I was looking for…” complaints. Available analytic data do not permit the OIG team
to make a judgment on this point. The KL team is planning several search enhancements to
improve the search experience, such as enabling “search agents” to allow users to save searches
and exploring the use of semantic Web capabilities to improve and fine-tune search results.

SharePoint Users Group

        EDiplomacy created the SharePoint Users Group (SPUG) as a forum for peer-to-peer
information sharing and support. SPUG meets monthly and held its first annual departmentwide
conference in May 2011. SPUG does not focus on the technical implementation of SharePoint
but on the business models for SharePoint use within the Department. SPUG is introducing
virtual meetings to broaden participation throughout the Department. The May 2011 SPUG
conference included roughly 80 virtual attendees, and the February/March monthly SPUG
meeting included attendees from 25 posts.

        SPUG is one of three entities that currently provide resources for SharePoint. The second
is IRM’s Systems and Integration Office, which hosts the majority of Department SharePoint
sites. The Systems and Integration Office is the primary provider for all SharePoint services
within the Department and provides all technical support for centrally hosted SharePoint sites.
The office also hosts SharePoint workshops and provides other information resources. The third
entity involved with SharePoint support is the SharePoint Working (SPWG), a grass roots
organization formed during the earliest days of SharePoint use at the Department. SPWG, like
SPUG, has focused on peer-to-peer information sharing and support. Numerous SPWG members
are in the field and host their own SharePoint installations.

        A basic level of coordination among these organizations is evident. SPUG publicly defers
to the Systems and Integration Office’s SharePoint Support site as the primary Department
SharePoint resource. SPUG and SPWG use the same SharePoint site to provide information to
members. That said, the role that each of these three groups fulfills and how they complement
and coordinate with one another is unclear. According to the SPUG site on Diplopedia, plans are
                                          27
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

under way to combine the shared SPUG and SPWG information site with the Systems and
Integration Office’s SharePoint Support site.

Recommendation 20: The Office of eDiplomacy, in coordination with the Bureau of
Information Resource Management, should consult with representatives of the SharePoint
Working Group to clarify and establish a policy on the roles and responsibilities for handling
SharePoint-related activities. (Action: eDiplomacy, in coordination with IRM)

Virtual Presence Posts

         Virtual Presence Posts (VPP) are targeted outreach coordination tools that are managed
and run by posts and designed to extend and coordinate the engagement of the United States in
cities far from U.S. embassies or consulates. VPPs use a mix of traditional diplomacy (travel,
outreach programs, assistance programs, and cultural exchange) and modern diplomacy (a
branded Web site, an electronic communications channel, and a VPP Team) to develop stronger
relationships with target audiences. EDiplomacy developed the VPP concept and standard
operating procedures, and the Office of International Information Programs designed the Web
sites. However, the posts are responsible for VPP implementation, establishing the relationships
with the underserved regions or demographic groups and following up with visits and programs
that could be publicized on the VPP Web sites.

        Although eDiplomacy still claims VPP as a product, many of the links on the VPP
intranet site do not work, and many of the VPP Web sites feature updates that are more than 1
year old. For example, of the 43 VPPs listed on the eDiplomacy Web site, 5 are no longer
accessible. Only nine sites have entries from 2011, while some have entries only from 2010 or
have not been updated since 2009. Furthermore, many sites are duplicates of the respective
embassy’s internet Web site and have no VPP-specific updates.

        To maintain the relationships, many posts have moved from static VPP Web sites to more
interactive technology, such as Facebook. According to the OIG’s September 2010 inspection
report on Beijing: 7 “While the Department’s original concept of VPPs emphasized electronic
outreach, VPPs in China focus on programs, including visits to schools and universities … Some
VPP coordinators are using electronic media for outreach. Several VPPs have Web pages linked
to the Embassy Beijing and Consulate General Guangzhou Web sites. The challenge is to keep
these sites current with the limited staff available”. Given that eDiplomacy no longer seems to
have a role in VPPs, it should not continue to promote VPPs as a current product; however, it
could list VPP as a concept originated by eDiplomacy that is now adapted and implemented by
others.

Recommendation 21: The Office of eDiplomacy should remove the Virtual Presence Post from
its listed programs and stop allocating resources to it. (Action: eDiplomacy)

Virtual Student Foreign Service

       In May 2009, the Secretary of State introduced the Virtual Student Foreign Service
program at a university commencement ceremony. The program encourages “eInternships” by

7
    OIG Report No. ISP-I-10-79A, Inspection of Embassy Beijing, China, and Constituent Posts, September 2010.
                                                28
                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

virtually connecting U.S. college students with U.S overseas posts and Department domestic
offices to engage in digital diplomacy. The Virtual Student Foreign Service program was
coordinated over the summer of 2009 and resulted in a pilot program with 37 posts and
approximately 50 former Department interns participating. According to eDiplomacy staff, the
program has received over 400 applications for the upcoming cycle and shows signs of growing
participation. EDiplomacy staff states that the 2011–2012 program will offer 146 available
positions for students to work on 108 projects with 66 overseas posts and 20 domestic offices.

         Upon completion of the pilot program, the project manager conducted a survey to
determine what worked well and what required improvement. Some of the common problems
included incorrect pairings of students and posts, lack of commitment and interest among
selected students, and insufficient information provided to posts regarding their interns. Some
posts indicated that the students did not meet their project needs nor have the skills necessary for
their particular project. To increase the applicant pool and recruit more suitable candidates, the
project manager opened the program to all U.S. citizen college students and requested more
detailed information from posts regarding specific skills, languages, and equipment knowledge
that students should possess. Additionally, the project manager has engaged in more outreach
efforts, including publication of articles in the Department magazine and discussing the program
during courses at the Foreign Service Institute.

        The program manager has also been working on a new effort within the program—
microtasking. This new concept is intended to increase the number of college students who are
involved with the Department and their contributions by having Department employees identify
discrete tasks or projects that can be clearly explained, posted to an external Web site, and
completed by any participating college student.

       Although the progress made with the program should be recognized, the OIG team
questions whether the Virtual Student Foreign Service program would not be better suited
elsewhere within the Department to ensure its alignment with other recruitment efforts. The key
question is whether the Virtual Student Foreign Service program is a recruitment/employment
program or a student exchange program. The answer to this question will best decide the
program’s place within the Department.

Recommendation 22: The Office of eDiplomacy, in coordination with the Office of the Chief
Information Officer, should determine which office should have ownership of the Virtual
Student Foreign Service program. (Action: eDiplomacy, in coordination with CIO)

Consulting and Product Integration

         With so many projects and services under DID’s purview, it is a serious challenge for
staff to recommend appropriate tools or integrated tool sets to meet specific Department needs.
From conversations with and observations of DID staff, the inspectors note the old truism that
“where you stand depends on where you sit.” Strong feelings exist among some staffers
regarding the relative merits of specific DID tools versus the limitations of others. Individuals
tend to turn to tools that are most familiar to them and to avoid, or even denigrate, those for
which they have a limited working knowledge. A solution-seeking customer could get
significantly different information, depending on the DID staffer consulted.


                                          29
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        To improve its consulting quality and capacity, DID should develop a series of business
models or case studies that reflect common challenges encountered throughout the Department.
They can cull these from assistance requests already received or through surveying organizations
within the Department. After fleshing out these models and case studies, DID staff should
develop a strategy (or conduct an options analysis of various strategies) to address the problem,
drawing from the full range of DID tools.

        This approach would serve several purposes. All DID business practice advisors could
attain a common level of knowledge regarding tool strengths, weaknesses, and functional
limitations. DID staff could also explore creative and innovative ways to integrate their tools to
meet common business challenges as well as use the business models/case studies and possible
solutions in their outreach activities to improve awareness of their tools and how they can be
used throughout the Department.

Recommendation 23: The Office of eDiplomacy should develop business models and/or case
studies of common Department of State challenges and corresponding solutions that utilize a
single or integrated set of Diplomatic Innovation Division tools to provide consistent advice to
customers and better educate them on the practical and innovative uses of eDiplomacy tools.
(Action: eDiplomacy)




                                          30
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Customer Liaison Division
        CLD was established to provide a single point of contact to facilitate the resolution of
customer service issues between bureau customers and IRM support groups and to help
coordinate IRM resources to fulfill bureau IT requirements. CLD has three branches: Domestic,
Regional, and External Affairs. The Domestic branch liaisons are each typically assigned three to
five domestic functional bureaus. Domestic liaison activities have been and continue to be
influenced by IT Consolidation. Typically, domestic liaisons interface between the out-of-scope
IT personnel in the bureau and the service-providing offices of IRM. The Regional branch
assigns two to three liaisons to each regional bureau, and they are responsible for liaising with
the out-of-scope IT personnel retained by the bureau as well as all with the overseas posts
associated with that regional bureau. The External Affairs branch liaises with external groups,
including other Federal agencies and even foreign governments. There are also two other distinct
functions that operate within CLD: two of the staff members of the domestic branch perform
administrative and procurement functions for all IRM offices in State Annex-9, and two
members of the regional branch run a rover program for temporary duty support to overseas
posts.

         CLD performs what many regard as a valuable service for IRM’s customers and has
numerous anecdotal accounts of how it has interceded on posts’ behalf to solve some seemingly
intractable problems. However, many of CLD’s operations are not well defined, from the roles
and responsibilities of liaisons to standard operating procedures and performance measures. Even
its placement within IRM, as well as that of some of its subcomponents, seems to defy
explanation. Moreover, the ambiguous nature of CLD’s operations leaves it unable to address
critical issues such as whether it is meeting its organizational mission, whether its liaisons are
performing effectively, and whether it is appropriately resourced. Some within the organization
even wondered whether CLD’s inability to address such questions raise the more important issue
of whether it is redundant or outmoded. Each of these issues is addressed in further detail below.

Roles and Responsibilities

         CLD liaisons have a difficult time defining what they do. During the course of the
inspection, the OIG team heard widely varying descriptions of the role of a liaison. Even those in
management positions had difficulty describing their own roles as well as those of the liaison
staff. This ambiguity in roles and responsibilities across the division is due to the absence of
standard operating procedures or performance measures. Some see strong ties with elements of
IRM Operations and follow Remedy trouble tickets closely. Others point out that there are
offices in IRM Operations that perform such functions. A few work more closely with DID
because they find its projects interesting and volunteer as beta testers for applications. There is
no business process workflow document to illustrate at what point in information operations
liaison involvement becomes necessary. Some even suggested that the lack of clarity in their
roles and responsibilities and possible duplication of IRM Operations activities might mean that
the liaison function is redundant. The need for defined roles and responsibilities for the office
was addressed within the Mission and Goals section of this report.




                                          31
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Performance Measures

        CLD has no performance metrics to monitor case loads or measure how well the liaisons
do their work. This condition follows naturally from CLD’s inability to clearly define roles and
responsibilities. Another contributing factor is that much of the liaisons’ work depends on the
participation of other entities to produce a result. Many internal opinions expressed on the
quality of their work are not based on quantifiable or objective measures but are formed
intuitively. Liaisons generally rely on informal feedback from customers to evaluate their
success. Customer surveys have been conducted in the past but were generally found to be
unsuccessful. The main source of information for supervisors to evaluate individual liaison
performance is the weekly activity report liaisons provide to branch chiefs, which is self-
reported. The lack of consistent and objective performance measures means CLD has no reliable
means of judging performance and evaluating whether it is achieving its mission and thus no
objective means of assessing whether it is appropriately resourced.

Recommendation 24: The Office of eDiplomacy should develop performance measures for the
Customer Liaison Division. (Action: eDiplomacy)

Standard Operating Procedures

        There are currently no standard operating procedures for CLD. One of the newest liaisons
has volunteered to develop them as she gains more knowledge about the job. As it is, each
liaison tends to define his or her own role and approach to the work. There is no check-in process
or sponsor program for new employees, although the division has indicated that it is initiating
such a program. There is ambiguity as to what level of involvement liaisons have with IRM’s
trouble ticket system—some use it quite heavily, others not at all. There is also no definition of
what constitutes VIP service or how many VIPs bureaus can designate for such service. The
division admits that this is a difficult problem that requires cooperation from the serviced
bureaus. The lack of standard operating procedures compounds the issue of inadequate
performance measurement that has been highlighted throughout this report.

Recommendation 25: The Office of eDiplomacy should create a handbook of standard
operating procedures for the Customer Liaison Division that includes objectives, means, and
measures for determining what scenarios require liaison officer involvement. The handbook
should provide guidelines for liaison officer action, benchmarks for measuring officer success,
and a basis for employee check-in processes for new liaison officers. (Action: eDiplomacy)

Outreach

        Outreach and associated activities necessary to increase exposure to and familiarity with
CLD’s domestic and regional branches is absent. CLD domestic and regional liaisons almost
universally acknowledged that customers do not know who they are or what they do. OIG
conducted a survey during the inspection and similarly found that most overseas posts do not
know who their assigned liaison is. The Project Services Office also conducted a study and found
a lack of familiarity with CLD services. Bureaus, on the other hand, do have more familiarity
due to interaction with liaisons during IT Consolidation.



                                         32
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        This lack of familiarity is due in part to the fact that new-hire information management
specialists do not always attend the CLD briefings included on their consultation schedule. Also,
CLD briefings at Foreign Service Institute occur too early in information management specialist
training, which means much is typically forgotten by the time the officers begin their overseas
tours. In its attempts to boost awareness of its domestic and regional branches, CLD has tried to
engage in outreach by using cables and emails; however, these efforts have not been successful.
CLD also recently held a town hall meeting that focused on customer service and are starting a
program of “hot seating,” where domestic liaisons have office hours at their assigned bureau site.

       However, the hot seating and town hall meeting do not address the root of the problem,
which is lack of overseas awareness. As a result, potential customers are bypassing the liaisons
and going directly to IRM service providers. This marginalizes or perhaps even calls into
question the utility of CLD services.

Recommendation 26: The Office of eDiplomacy, in coordination with the Bureau of
Information Resource Management, should define and codify the services of the Customer
Liaison Division within the universal service-level agreement of the Bureau of Information
Resource Management. (Action: eDiplomacy, in coordination with IRM)

Recommendation 27: The Office of eDiplomacy should develop and implement a plan of
outreach activities to increase awareness of the services of the Customer Liaison Division among
Department of State information management employees. (Action: eDiplomacy)

Training Plans

         There is no formal training plan for staff development in CLD. CLD personnel are
encouraged to sign up for courses as they see fit, and training is seldom denied. However, the
courses are not chosen according to a curriculum designed to meet either the goals and objectives
of the office or the short- and long-term development needs of individual liaisons. Many of the
liaisons come from operational backgrounds, where they were responsible for maintaining
systems and fixing problems as they occurred. Assisting others in navigating a bureaucratic maze
requires a rather different skill set. In fact, a report issued by IRM’s Project Services Office this
year described the needed skills as “a set of account management skills, particularly soft skills
that the typical CLD representative does not possess or has not received training on in order to
fulfill new performance and customer service level demands.” The process of evaluating the
existing skill sets within the office and developing a training continuum to meet the needs of the
liaison function would also help to determine appropriate staffing levels and achieve a balance
among Civil Service, Foreign Service, and other employee categories.

       Informal Recommendation 5: The Office of eDiplomacy should develop a training plan
       that lays out a course of study to aid in the development of the skills required of a
       customer liaison.

Administrative Functions

       The Domestic branch has a management analyst and an intern who perform
administrative functions for all IRM offices in State Annex-9, where eDiplomacy is also located.
The arrangement was based on the plans of the former deputy CIO for Operations, but the role is
                                          33
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

not well defined. The position is also not optimally placed in the Domestic, as there is
insufficient access to information for procurement decisions. The position would be better suited
reporting to an organizational level that has authority over all office residents in State Annex-9
or to the Bureau of Administration, which provides the remaining administrative functions to
IRM.

Recommendation 28: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should relocate the administrative function that provides
procurement support such that it reports to an organizational entity with oversight for all of the
supported offices. (Action: eDiplomacy, in coordination with A/EX)

Rover Coordinators

        Two when actually employed staff members of the Regional branch operate a rover
program that provides temporary duty support to overseas posts. Although effectively run, the
program is entirely distinct from the rest of CLD operations. Aside from their weekly reporting
on activities, the two staff members have little interaction with the rest of CLD and do not base
rover assignments on liaison interactions with posts. It is an autonomous operation and could just
as readily fit into many other offices within IRM. Its placement is illustrative of the tendency to
use eDiplomacy as a home for anomalous components of IRM.




                                          34
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Office of eDiplomacy, in coordination with the Office of the Chief
Information Officer, should establish and mandate a mission statement for the office that outlines
its core focus and mission for the Department of State. (Action: eDiplomacy, in coordination
with CIO)

Recommendation 2: The Office of eDiplomacy, in coordination with the Office of the Chief
Information Officer, should develop and disseminate goals and objectives for its office,
divisions, and branches/teams to define their core functions and develop corresponding
operational plans. (Action: eDiplomacy, in coordination with CIO)

Recommendation 3: The Office of eDiplomacy should develop a plan to reach out, in keeping
with its own fundamental mission, to other Federal agencies and the private sector in pursuit of
technologies and innovations that could significantly transform the Department of State’s ability
to exploit its existing information resources. (Action: eDiplomacy)

Recommendation 4: The Bureau of Information Resource Management should relocate the
Customer Liaison Division so that it reports directly to the Business Management and Planning
Directorate. (Action: IRM)

Recommendation 5: The Bureau of Information Resource Management should relocate the
External Affairs branch from the Office of eDiplomacy to the Office of the Chief Information
Officer. (Action: IRM)

Recommendation 6: The Office of eDiplomacy should conduct an analysis of its staffing
levels to determine those sufficient for supporting core functions and sustainable projects.
(Action: eDiplomacy)

Recommendation 7: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should designate one permanent individual to handle
management and administrative functions for the office and rewrite that individual’s position
description to reflect those duties. (Action: eDiplomacy, in coordination with A/EX)

Recommendation 8: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should develop a thorough orientation program for new
employees that covers office structure, operations, and projects and that integrates those
employees into existing team structures. (Action: eDiplomacy, in coordination with A/EX)

Recommendation 9: The Office of eDiplomacy should develop a general outreach plan based
on its overall goals, objectives, and services. This plan should include, at a minimum, marketing
strategies that are tied to success indicators for each individual project and service. (Action:
eDiplomacy)

Recommendation 10: The Office of eDiplomacy should obtain formal designation letters for
their assigned information systems security officers. (Action: eDiplomacy)



                                         35
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 11: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should establish controls over supply procurement and
storage. (Action: eDiplomacy, in coordination with A/EX)

Recommendation 12: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should define and enforce a funding approval process to be
used for all travel requests. (Action: eDiplomacy, in coordination with A/EX)

Recommendation 13: The Bureau of Information Resource Management should rewrite the
public affairs officer’s position description so that this officer reports directly to the chief
information officer. (Action: IRM)

Recommendation 14: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should formalize the Diplomatic Innovation Division team
structure to include clear supervisory lines. (Action: eDiplomacy, in coordination with A/EX)

Recommendation 15: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should develop position descriptions for team leaders to
formalize management and oversight responsibilities and make position grades commensurate
with their duties. (Action: eDiplomacy, in coordination with A/EX)

Recommendation 16: The Office of eDiplomacy should implement a scalable project
management methodology that is consistent with Managing State Projects for all Diplomatic
Innovation Division projects, paying specific attention to elements related to project initiation,
prioritization, and operations phase ownership. (Action: eDiplomacy)

Recommendation 17: The Office of eDiplomacy should develop and implement a
performance measurement plan for Diplomatic Innovation Division projects that clearly
articulates project goals and objectives and identifies output and outcome measures for assessing
and reporting project results. (Action: eDiplomacy)

Recommendation 18: The Office of eDiplomacy, in coordination with the Bureau of
Information Resource Management, should eliminate the Collaboration Clearinghouse and
replace it with appropriate business models and consulting services for the Department of State.
(Action: eDiplomacy, in coordination with IRM)

Recommendation 19: The Bureau of Information Resource Management should develop and
disseminate a clear purpose and objectives document for the Information Technology Innovation
Fund that includes detailed milestones, performance measures, and approval criterion for project
proposals. (Action: IRM)

Recommendation 20: The Office of eDiplomacy, in coordination with the Bureau of
Information Resource Management, should consult with representatives of the SharePoint
Working Group to clarify and establish a policy on the roles and responsibilities for handling
SharePoint-related activities. (Action: eDiplomacy, in coordination with IRM)

Recommendation 21: The Office of eDiplomacy should remove the Virtual Presence Post
from its listed programs and stop allocating resources to it. (Action: eDiplomacy)


                                          36
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 22: The Office of eDiplomacy, in coordination with the Office of the Chief
Information Officer, should determine which office should have ownership of the Virtual
Student Foreign Service program. (Action: eDiplomacy, in coordination with CIO)

Recommendation 23: The Office of eDiplomacy should develop business models and/or case
studies of common Department of State challenges and corresponding solutions that utilize a
single or integrated set of Diplomatic Innovation Division tools to provide consistent advice to
customers and better educate them on the practical and innovative uses of eDiplomacy tools.
(Action: eDiplomacy)

Recommendation 24: The Office of eDiplomacy should develop performance measures for
the Customer Liaison Division. (Action: eDiplomacy)

Recommendation 25: The Office of eDiplomacy should create a handbook of standard
operating procedures for the Customer Liaison Division that includes objectives, means, and
measures for determining what scenarios require liaison officer involvement. The handbook
should provide guidelines for liaison officer action, benchmarks for measuring officer success,
and a basis for employee check-in processes for new liaison officers. (Action: eDiplomacy)

Recommendation 26: The Office of eDiplomacy, in coordination with the Bureau of
Information Resource Management, should define and codify the services of the Customer
Liaison Division within the universal service-level agreement of the Bureau of Information
Resource Management. (Action: eDiplomacy, in coordination with IRM)

Recommendation 27: The Office of eDiplomacy should develop and implement a plan of
outreach activities to increase awareness of the services of the Customer Liaison Division among
Department of State information management employees. (Action: eDiplomacy)

Recommendation 28: The Office of eDiplomacy, in coordination with the Bureau of
Administration’s Executive Office, should relocate the administrative function that provides
procurement support such that it reports to an organizational entity with oversight for all of the
supported offices. (Action: eDiplomacy, in coordination with A/EX)




                                          37
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Office of eDiplomacy should counsel Diplomatic
Innovation Division team leaders to provide continuous and consistent feedback to their
employees on projects and initiatives.

Informal Recommendation 2: The Office of eDiplomacy should identify and support travel
opportunities for staff that maximize return on investment by combining conference attendance
and presentations with outreach and evaluation activities at overseas posts.

Informal Recommendation 3: The Office of eDiplomacy should provide Diplopedia users
with a clear and easy-to-use mechanism for reporting out-of-date, inaccurate, or incomplete
content.

Informal Recommendation 4: The Office of eDiplomacy should designate a full-time or nearly
full-time staff member to serve as the Diplopedia content manager/editor.

Informal Recommendation 5: The Office of eDiplomacy should develop a training plan that
lays out a course of study to aid in the development of the skills required of a customer liaison.




                                          38
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                                           Name     Arrival Date
Director                                            Richard Boly           01/09
Deputy Director                                      Scott Smith           08/10
Division Chiefs
       Diplomatic Innovation Division Chief           Scott Smith         08/10
       Customer Liaison Division Chief             Diane Peterson         09/10




                                       39
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations

BMP             Bureau of Business Management and Planning
BSRP            Bureau Strategic and Resource Plan
CIO             Chief information officer
CLD             Customer Liaison Division
DID             Diplomatic Innovation Division
eDiplomacy      Office of eDiplomacy
EUR             Bureau of European and Eurasian Affairs
FAH             Foreign Affairs Handbook
FAM             Foreign Affairs Manual
IRM             Bureau of Information Resource Management
ISSO            Information systems security officer
IT              Information technology
KL              Knowledge Leadership
P&O             Policy and Outreach
SPUG            SharePoint Users Group
SPWG            SharePoint Working Group
VPP             Virtual Presence Post




                            40
                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


Appendix: EDiplomacy Organizational Chart



                           Business Management
                                and Planning
                             (IRM/DCIO/BMP)




                               eDiplomacy
                            (IRM/BMP/EDIP)




   Diplomatic Innovation                      Customer Liaison Division
         Division
                                                       (CLD)
           (DID)




  Regional Branch           Domestic Branch          External Affairs
       (RB)                       (DB)                     (EA)




                                 41
                     SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED



FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
                          42
              SENSITIVE BUT UNCLASSIFIED
